           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Investment Review Board                                        Date:    June 29, 2004
           Deliberations on the Motor Carrier Management
           Information System
           Report Number No. MH-2004-068
  From:    Alexis M. Stefani                                                             Reply to
                                                                                         Attn. of:   JA-40
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Department of Transportation Chief Information Officer
           Federal Motor Carrier Safety Administrator

           Our attendance at a recent meeting of the Department’s Investment Review Board
           (IRB)1 prompted us to examine the supporting justification on the Federal Motor
           Carrier Safety Administration’s (FMCSA) Motor Carrier Management
           Information System (MCMIS).

           FMCSA relies on MCMIS to monitor over 600,000 active interstate motor carriers
           and as the basis for targeting its limited resources at carriers posing the greatest
           safety risk. Because MCMIS is so critical to FMCSA’s mission of reducing
           highway fatalities involving large trucks, and because MCMIS is so dependent on
           data, we examined the supporting material on the IRB presentation to ensure that
           data quality issues found in our audit work were properly considered in MCMIS
           investment decisions. We also wanted to be sure that cost estimates for continuing
           and expanding MCMIS and for fixing data quality problems were reasonable and
           supported.

           We found problems with how well FMCSA had addressed data quality issues in
           its MCMIS justification and in the overall support for system cost estimates. This
           memorandum details these issues to ensure that FMCSA and the IRB have
           sufficient information for making informed decisions.



           1
            The IRB, which has the authority to approve, modify, or terminate major information technology (IT) investments, is
            chaired by the Deputy Secretary, and comprised of the Department of Transportation (DOT) Chief Information
            Officer (CIO), the DOT Chief Financial Officer, the General Counsel, and the Assistant Secretary for Administration.
                                                                                                                        2


On February 13, 2004, FMCSA briefed the IRB on MCMIS, the electronic data
system that serves as the primary repository for motor carrier safety and
operational data and is the source for numerous studies of motor carrier issues.
MCMIS provides data to the Safety Status Measurement System (SafeStat) on
motor carrier characteristics, reported crashes, roadside inspections, and other
safety events that management uses to identify high-risk carriers for Government
compliance reviews. MCMIS is also the source for publicly available safety data
on all active interstate motor carriers in the country.5

The IRB briefing covered planned enhancements to MCMIS that would enable
FMCSA to respond to congressional mandates such as one requiring a single,
unified carrier registration system and other improvements designed to enhance
the system’s operation.         According to the briefing, implementing the
enhancements and maintaining the current system will cost $5.7 million annually
in fiscal years (FY) 2005 and 2006, while life-cycle costs2 through FY 2009
total $60.5 million.

FMCSA’s briefing to the IRB was based upon a budget justification and
management report known as the Exhibit 300.3 To see whether this budget
justification was providing a full and complete picture of the MCMIS investment,
we compared our February 2004 audit findings4 on data quality to the data quality
assertions in the most recent Exhibit 300 for MCMIS. We also assessed
FMCSA’s support for its cost estimates. Further details on our objectives, scope
and methodology are in Exhibit A.


OBSERVATIONS AND RECOMMENDATIONS
FMCSA’s justification for the MCMIS investment provided an incomplete picture
of the data quality issues associated with MCMIS. Even though other elements of
FMCSA’s budget called for significant funding to remedy known data quality
weaknesses, the MCMIS justification asserted that “…there aren’t any data quality
issues at this time.” This is a critical gap in the MCMIS justification because
FMCSA relies on MCMIS data to target its oversight resources and the public uses
the information for business decisions. The quality of the data input into this
critical system is poor: so poor that FMCSA recently took action to remove key
elements of the data from the public Internet site until it is improved. A more

2
  Life-cycle cost is the total estimated cost for a particular program alternative. It includes direct and indirect initial
  costs plus any periodic or continuing costs over the life of the program.
3 The Exhibit 300 is required by the Office of Management and Budget Circular No. A-11. FMCSA prepares and
  updates Exhibit 300 for its annual budget request and to measure the performance of the investment against expected
  costs, benefits, and schedule milestones.
4
  Report Number MH-2004-034, “Improvements Needed in the Motor Carrier Safety Status Measurement System,”
  February 13, 2004.
                                                                                     3


complete depiction of the actions necessary to cure the known data quality
problems and the associated costs should be included in the MCMIS justification,
to provide assurance that continued investment in MCMIS is worth the cost.
Future MCMIS funding requests and briefings to the IRB should identify the
scope and success of FMCSA’s actions to ensure that complete and accurate data
are used in MCMIS.

In addition to providing an incomplete picture of data quality issues, FMCSA
could not adequately support the MCMIS cost estimates presented in its budget
justification and used in briefing the IRB. For example, FMCSA could not
provide information on cost assumptions, contracts, and service provider estimates
used to develop the funding levels. In conjunction with the Departmental Chief
Information Officer (CIO), FMCSA should implement guidance for developing
and validating information technology funding requests and provide supportable
estimates for the MCMIS life-cycle costs. Without improved information, neither
FMCSA nor the IRB can make informed decisions about continued funding for
MCMIS operations and enhancements to the system.

Further details on our observations are provided below.


Data Quality Risks Not Reflected in Budget Justification
FMCSA needs to revise its MCMIS budget justification to include known data
quality risks, as well as the costs associated to cure or mitigate these data quality
issues. Specifically, the July 2003 risk inventory and assessment for MCMIS in
its Exhibit 300 budget justification stated, “. . .there aren’t any data quality issues
at this time.” However, our SafeStat final audit report issued in 2004 found the
following data quality problems related to MCMIS data:

• a lack of updated census data (current number of vehicles and drivers used by a
  carrier) for 42 percent of the 643,909 active carriers, and for 31 percent of the
  170,623 carriers that had sufficient safety information on record to be
  evaluated in SafeStat.

• a recorded value of zero vehicles for approximately 11 percent of active
  carriers and zero drivers for 15 percent of active carriers even though many of
  these same carriers also had crashes or inspections reported against vehicles or
  drivers.

• states not providing reports for an estimated one-third of the large trucks
  involved in crashes annually, including 37,000 crashes involving interstate
  carriers.
                                                                                  4


• late reporting of about 18,000 or 20 percent of the crashes reported in FY 2002
  by as much as 6 months after the crashes occurred.

• underreporting of serious moving traffic violations (mainly speeding) that were
  identified during roadside inspections, including an estimated 29,000 serious
  moving traffic violations in one state that went uncounted for 3 years.

FMCSA acknowledged these data quality problems in its response to the
December 10, 2003 draft of the SafeStat audit report, and described a number of
positive actions initiated or planned to fix the problems. These actions included
providing guidance to Internet users on the limitations of the data reported by the
states; establishing goals for completeness, accuracy, and timeliness of data; and
developing a comprehensive data quality plan. In addition, FMCSA has decided
to remove overall carrier score data from its SafeStat Internet site. According to
an FMCSA official, efforts to improve the data are underway and the data will not
be posted to the site until quality issues are resolved.

Separate from the MCMIS request, FMCSA has also requested funding in its FY
2005 budget request to Congress to address data quality issues. For example, the
information management budget includes $7.4 million to continue a program to
improve crash collection and reporting from the states. This effort was mandated
by the Motor Carrier Safety Improvement Act of 1999. Crash data are provided
by the states to MCMIS and FMCSA has recognized that approximately a third of
the trucks involved in large crashes are not included in the database. Additionally,
according to an FMCSA official a portion of the $4.0 million in funding for data
analysis was targeted for an electronic system for filing concerns about publicly
released Federal and state data. Given the importance of quality data to FMCSA’s
mission, and the significant resources being devoted to correcting data quality
problems, the MCMIS budget justification should identify the efforts underway to
eliminate, mitigate, or manage the acknowledged data quality risks, and clearly
report on the scope and success of these efforts.

The costs of addressing data quality problems could be significant both in funding
and time. For example, the cost and time required to ensure that 272,000 carriers
comply with the congressional requirement to update data every 2 years could be
considerable. Closing the significant gap in state reporting of crashes could also
involve significant expenditures. A clear description in the current Exhibit 300
budget justification of the planned initiatives to solve these problems and any
associated costs would assist decision makers in making hard choices now
between building new capabilities and ensuring the reliability of current
operations. A clear statement in the FY 2006 MCMIS budget request of any
future requirements or trade-offs needed to address MCMIS data quality issues is
essential to ensure that these long-standing problems are corrected.
                                                                                 5


Support for Life-Cycle Cost Estimates Were Not Sufficient
According to FMCSA’s Exhibit 300 budget justification, estimated life-cycle costs
for MCMIS are $67.4 million from FY 2005, the budget year, through the life of
the project, which FMCSA stated as “FY 2009 and beyond.” FMCSA proposes
this funding to support several upgrades and improvements and to enhance the
public interface with MCMIS. The funding also addresses the continued data
processing of several hundred thousand forms per year, including the forms used
to record critical motor carrier data. FMCSA reports that over 10,000 Federal and
state enforcement personnel use MCMIS information to perform duties needed to
meet the Agency’s goal of reducing truck and bus crashes.

We agree with FMCSA’s assertions in its budget justification regarding the
criticality of MCMIS to its mission and we do not question the need to enhance
MCMIS to address congressional mandates and changing requirements of the
motor carrier industry. However, the supporting materials provided to us for the
estimates were missing key elements and the information that was provided was
questionable or inconsistent.

For example, although officials provided a breakdown of the costs making up the
Exhibit 300 life-cycle data, officials could not provide key supporting information
such as:

• the assumptions used for computing increases in the investment from the base
  year through the life of the project.

• information on cost assumptions, contracts, and service provider estimates
  used to develop the funding levels.

Further, the IRB briefing, Exhibit 300 budget justification, and the supporting
information that was provided to us also contained some questionable information,
and inconsistent information. For example:

• the IRB briefing cited life-cycle costs of $60.5 million, although the
  Exhibit 300 shows life cycle cost of $67.4. (An additional $6.9 million for
  Government personnel costs was excluded from the life-cycle cost figure
  provided to the IRB.)

• the Exhibit 300 narrative shows a planned investment completion date of
  FY 2008, but the funding estimate in the Exhibit 300 extends beyond FY 2009.

• the cost breakdown provided shows identical values for telecommunications
  and security, which appeared unusual and thus warranted further questioning,
  but FMCSA could not provide us detail on how these were derived.
                                                                                 6


• the funding estimate for security in the cost breakdown provided to the IRB
  was more than double the level of security funding called for in the narrative
  explanation of Exhibit 300 supporting the MCMIS investment.

FMCSA officials stated that the MCMIS cost estimates were based upon a
projection of current work efforts, which were derived from historical information
and the experience of the MCMIS team. Guidance issued by the DOT CIO
requires greater detail to justify the monies required as well as to support an
executive level decision to continue to invest in the system. However, FMCSA
does not have detailed guidance for developing and validating information
technology funding requests.

To prevent this problem in the future, FMCSA should work with the DOT CIO to
issue specific guidance for developing and validating the Agency’s cost estimates.
The Assistant CIO in FMCSA stated that a formal process was under development
for use during the FY 2006 planning cycle. The newly developed process should
be applied to the current MCMIS budget justification to ensure that all costs,
including those associated with data quality improvements, are detailed and
supported. With more complete and consistent support for the life-cycle cost
estimates, DOT can be assured that the funds being requested for FY 2006 and
beyond are reasonable and sufficient to fund this critical system.


Recommendations
We recommend that FMCSA:

1. Revise the MCMIS Exhibit 300 budget justification to identify known data
   quality risks, the strategy planned to correct data quality weaknesses, and the
   success of these measures. The revision should state the cost implications, if
   any, associated with managing this risk and be part of the FY 2006 budget
   submission.

2. Implement FMCSA guidance, in consultation with the DOT CIO, for
   developing and validating information technology funding requests.

3. Use the established guidance to revise the budget justification to reflect
   supportable estimates for MCMIS life-cycle costs. This action should occur
   prior to the FY 2006 budget submission.


ACTION REQUIRED
We provided a draft of this report to FMCSA officials on May 18, 2004 to obtain
their oral comments. In general, those officials agreed with the facts as presented
                                                                                     7


in the report but officials stated that to provide a fuller context for the issues, the
report should include a description of FMCSA’s information management
initiatives on data quality that are addressed outside the Exhibit 300 justification
for MCMIS. We revised the report to include these initiatives.

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving FMCSA’s formal written comments within 30 calendar days.
If you concur with the finding and recommendations, please indicate the specific
action taken or planned for each recommendation and the target date for
completion. If you do not concur, please provide your rationale. You may
provide alternative courses of action that you believe would resolve the issues
presented in this report.

We appreciate the courtesies and cooperation of FMCSA staff during our review.
If you have any questions concerning this report, please call me at (202) 366-1992
or Kurt Hyde, Deputy Assistant Inspector General for Surface and Maritime
Programs at (202) 493-0331.

                                          #



cc:    Investment Review Board Members
       Assistant Secretary for Budget and Programs
                                                                                 8




EXHIBIT A. OBJECTIVES, SCOPE AND
METHODOLOGY
Our objectives were to examine the relevance of our recent audit work on the
Motor Carrier Safety Status Measurement System (SafeStat) to the IRB
deliberations on MCMIS and to determine whether FMCSA’s estimates on the
cost, funding, and scheduling for MCMIS were sufficiently supported.

To accomplish our objectives we reviewed supporting information contained in a
FMCSA report on the MCMIS investment known as Exhibit 300. FMCSA
prepares and updates Exhibit 300 on a continuing basis and includes it in the
capital asset plan and business case submission to the Office of Management and
Budget for the annual budget request. Exhibit 300 is also a management tool used
to measure the performance of IT investments against expected costs, benefits, and
schedule milestones. Exhibit 300 includes a projection of life-cycle costs for the
system and an assessment of the risks associated with the investment. FMCSA
used the most recent Exhibit 300 to support the briefing to the IRB.

To examine the relevance, if any, of our recent audit work on SafeStat to the IRB
deliberations on MCMIS, we compared our findings in OIG Report Number MH-
2004-034, “Improvements Needed in the Motor Carrier Safety Status
Measurement System,” February 13, 2004 with the MCMIS Exhibit 300. As one
of its objectives, the audit evaluated the adequacy of data from MCMIS that is
used by the Motor Carrier Safety Status Measurement System (SafeStat).

To determine whether sufficient support was available for FMCSA’s estimates on
the cost, funding, and scheduling for MCMIS, we reviewed information FMCSA
provided to the IRB supporting the cost estimates made as part of the capital asset
plan and business case submission to the Office of Management and Budget. As
part of the DOT capital planning and investment control process, FMCSA was
required to develop a business case for MCMIS with accurate, reliable, and up-to-
date data on project costs, reliability, and risk. We met with FMCSA officials
responsible for preparing the life-cycle cost estimates for MCMIS to discuss the
basis for and the assumptions used in formulating the life-cycle cost estimate. We
also reviewed a breakdown of the life-cycle cost estimates for MCMIS provided
by FMCSA. Given the insufficient documentation provided for the cost estimates,
we did not pursue an analysis of more specific funding and scheduling elements.

We conducted this review from January 24 through March 31, 2004, in accordance
with Government Auditing Standards prescribed by the Comptroller General of



Exhibit A . Objectives, Scope, and Methodology
                                                                              9


the United States, and included such tests of internal controls as we considered
necessary to provide reasonable assurance of detecting abuse or illegal acts.




Exhibit A . Objectives, Scope, and Methodology
                                                                        10




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                     Title

  Debra Ritt                      Assistant Inspector General for Surface
                                  and Maritime Programs

  Kurt Hyde                       Deputy Assistant Inspector General for
                                  Surface and Maritime Programs

  Joe Comé                        Program Director

  Michael Marshlick               Computer Scientist

  Gerard Sheeran                  Project Manager

  James Bess                      Senior Analyst

  Jean Yoo                        Information Technology Specialist

  Harriet Lambert                 Editor




Exhibit B: Major Contributors to this Report
